I

No.
In The

Supreme Court of tfje QEmteb States
Lourdes Fontanillas L6pez,
Petitioner,
v.
Morell Bauza Cartagena & Dapena, LLC, et al.
Respondents.
PROOF OF SERVICE
I, Lourdes Fontanillas Lopez, do swear and declare that on this date, July 1,
2019, as required by Supreme Court Rule 29, one (1) unbound and forty (40) copies of
the Petition for a Writ of Certiorari in the above-captioned case were sent via United
States Postal Service, Priority Mail Express to the U.S. Supreme Court, and three (3)
true and correct copies were sent via Certified Mail with Return Receipt and e-mail
to:
Giovanna Moreno Lopez, Esq.
Morell Bauza Cartagena & Dapena, LLC/
Morell, Cartagena & Dapena, LLC
P.O.Box 13399
San Juan, Puerto Rico 00908
Tel. (787) 723-1233; Fax (787) 723-8763
giovanna.moreno@mbcdlaw.com
Counsel for all Respondents
I further certify that all parties required to be served have been served. I
declare under penalty of perjury that the foregoing is true and correct.

d

,/

Executed on July 1, 2019.
Lourdes Fontanillas Lopez
Petitioner Pro Se
c/o Modesto Bigas Mendez
Modesto Bigas Mendez
Law Office
P.O. Box 7462
Ponce, PR 00732-7462
Tel: (787) 844-1444
Fax: (787) 842-4090
modestobigas@yahoo.com

-2-

